Pricing Information Table
Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

25.24%

This APR will vary with the market based on the Prime Rate.

11.90% for select purchases eligible for the 48 month reduced rate credit plan.*
0% – 11.99% for select purchases eligible for the 24 month reduced rate credit
plan (available after June 30, 2020).*

8.99% – 12.99% for select purchases eligible for the 36 month reduced rate
credit plan (available after June 30, 2020).*
How to Avoid
Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will not
charge you any interest on purchases if you pay your entire balance by the due date
each month.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $2.

How We Calculate
Your Balance

Daily Balance (including current transactions)

Fees
Penalty Fees
•

Late Payment

Up to $40

Details About Your Interest Rates
and Interest Calculations

Daily Periodic Rate

For variable rates:
U.S. Prime Rate Plus

Purchases

0.06915%

21.99%

Reduced Rate Credit Plan for 11.90% 48 months

0.03260%

N/A

Reduced Rate Credit Plan for 0% 24 months

0.00000%

N/A

Reduced Rate Credit Plan for 7.99% 24 months

0.02189%

N/A

Reduced Rate Credit Plan for 11.99% 24 months

0.03284%

N/A

Reduced Rate Credit Plan for 8.99% 36 months

0.02463%

N/A

Reduced Rate Credit Plan for 12.99% 36 months

0.03558%

N/A

APRs Based on Prime. If any APR is based on the U.S. Prime Rate (“Prime Rate”), the APR will equal the Prime Rate
plus the additional amount shown above. If the Prime Rate increases, it will cause the APR to increase. If the Prime
Rate decreases, it will cause the APR to decrease. For each billing cycle we use the Prime Rate published in The Wall
Street Journal two business days before the Statement Closing Date. If the Prime Rate changes any APR, we put the
new APR into effect as of the first day of the billing cycle for which we calculate the APR. We apply the new APR to any
existing balances, subject to any promotional rate that may apply. If The Wall Street Journal does not publish the Prime
Rate, we will use a similar published rate.
Effect of APR Increases. If an APR increases, interest charges increase. Your minimum payment may increase as well.
Daily Balance. We calculate the daily balance for each of your different balances. To get a daily balance, we take the
balance at the end of the previous day, add the interest on the previous day’s balance and new charges, and subtract new
credits or payments. We figure the interest charge by multiplying the daily balance by its daily periodic rate each day in the
billing cycle. We then add up all the daily interest charges and the total is the interest charge for the billing cycle.
*The store sales associate or store website will identify which purchases are eligible for these plans.

77S-0520

